No: 21IN THE SUPREME
COURT OF THE UNITED STATES

KHALED ELBEBLAWY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Khaled Elbeblawy, pursuant to SUP CT. R. 39.1, respectfully moves for
leave to file the accompanying petition for writ of certiorari in the Supreme Court of
the United States without payment of costs and to proceed in forma pauperis.
Petitioner was previously found financially unable to obtain counsel and The
O’Donnell Law Firm was appointed to represent Petitioner pursuant to 18 U.S.C. §
3006A. Therefore, in reliance upon RULE 39.1 and § 3006A(d)(6), Petitioner has not
attached the affidavit which would otherwise be required by 28 U.S.C. § 1746.

SONIA ESCOBIO O’DONNELL
The O’Donnell Law Firm, P.A.
Miami, Florida
April 21, 2021

By:

s/ Sonia Escobio O’Donnell
Sonia Escobio O’Donnell
Counsel of Record for Petitioner
700 S. Royal Poinciana Blvd., Ste 705
Miami Springs, Florida 33166
(305) 640-8958

